No. 20-915
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------UNICOLORS, INC.,
Petitioner,
v.
H&M HENNES & MAURITZ, L.P.,
Respondent.
---------------------------------♦--------------------------------On Writ Of Certiorari To The
United States Court Of Appeals
For The Ninth Circuit
---------------------------------♦--------------------------------BRIEF OF AMICUS CURIAE
CALIFORNIA FASHION ASSOCIATION
IN SUPPORT OF RESPONDENT
---------------------------------♦--------------------------------JEFFREY LEWIS
JEFF LEWIS LAW
609 Deep Valley Drive,
Suite 200
Rolling Hills Estates, CA
90274
DEBORAH E. GRAVES
WITHERS BERGMAN LLP
1925 Century Park East,
Suite 400
Los Angeles, CA 90067

MORGAN E. PIETZ
Counsel of Record
PIETZ & SHAHRIARI, LLP
9454 Wilshire Boulevard,
Suite 310
Beverly Hills, CA 90212
(310) 424-5557
morgan@pstrials.com

Counsel for Amicus Curiae
California Fashion Association
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS ......................................

i

TABLE OF AUTHORITIES .................................

ii

I.

INTERESTS OF AMICUS CURIAE .........

1

II.

SUMMARY OF THE ARGUMENT ...........

3

III.

ARGUMENT ..............................................

7

A. How Unicolors and Similar Plaintiffs
in the Business of Fabric Litigation
Game the Copyright System ...............

7

1. The Copyright Registration Process ..................................................

8

2. Infringement Under the Copyright
Act ................................................... 11
3. Examples of Unicolors and Other
Fabric Plaintiffs Gaming the System .................................................. 17
B. Section 411(b) Should be Interpreted so
That it is Easier to Invoke and Apply,
Not Harder ........................................... 24
IV.

CONCLUSION .......................................... 32

ii
TABLE OF AUTHORITIES
Page
CASES
DeliverMed Holdings, LLC v. Schaltenbrand,
734 F.3d 616 (7th Cir. 2013) ......................................5
Ets-Hokin v. Skyy Spirits, Inc., 323 F.3d 763 (9th
Cir. 2003) ........................................................... 24, 25
Feist Publ. v. Rural Telephone Serv. Co., 499 U.S.
340 (1991) ..................................................................9
Gold Value Int’l Textile v. Sanctuary Clothing,
925 F.3d 1140 (9th Cir. 2019) ............................ 14, 30
L.A. Printex Indus., Inc. v. Aeropostale, Inc., 676
F.3d 841 (9th Cir. 2012) ...........................................30
Matrix v. Macy’s, C.D. Cal. No. 12-cv-1450 ................18
Matrix v. Milkprint, C.D. Cal. No. 12-cv-8597 ..... 18, 19
Skidmore v. Led Zeppelin, 952 F.3d 1051 (2020) .......12
Star Fabrics, Inc. v. Zulily, LLC, C.D. Cal. No. 17cv-8358............................................................... 22, 23
RULES
Sup. Ct. R. 37.6 .............................................................1
STATUTES
17 U.S.C. § 106 ..............................................................8
17 U.S.C. § 408(d)............................................................ 30
17 U.S.C. § 410(c) ............................................ 11, 12, 13
17 U.S.C. § 411 ........................................................ 6, 31

iii
TABLE OF AUTHORITIES – Continued
Page
17 U.S.C. § 411(a) ..........................................................8
17 U.S.C. § 411(b) ................................................ passim
17 U.S.C. § 411(b)(2) ............................................. 28, 29
17 U.S.C. § 411(b)(3) ........................................... passim
17 U.S.C. § 412 .................................................. 6, 15, 31
OTHER AUTHORITIES
Goold, Patrick Russell, Is Copyright Infringement a Strict Liability Tort?, 30 Berkeley
Technology Law Journal 305 (2015) .......................16
Sag, Matthew, Copyright Trolling, An Empirical
Study, 100 Iowa L. Rev. 1105 (2015)............................7
U.S. Copyright Office, Compendium of U.S.
Copyright Office Practices § 602.4(D) (3d ed.
2021) .................................................................... 9, 13

1
INTERESTS OF AMICUS CURIAE1

I.

The California Fashion Association (“Cal. Fashion”) is a non-profit organization established in 1995,
providing information for business expansion and
growth to the apparel and textile industry of California.
Cal. Fashion’s mission is to provide a forum for industry networking, outline global sourcing options and
export opportunities, provide information about labor
law compliance, share industry-related legal developments, analyze the application of apparel-related technology, promote advanced education for the industry,
and define the industry’s economic impact.
Cal. Fashion was specifically organized to address issues of concern to the California fashion and
apparel industry. Its 140+ members include fashion
and apparel manufacturers, suppliers, financial service providers, professional service providers, technology providers, other fashion-related businesses,
industry publications, educational institutions, related associations, and international points of contact.
Cal. Fashion strives to be the local voice of the
fashion business, which is the largest manufacturing
sector in Southern California. Over 10,000 firms are
1

Counsel for all parties have filed blanked consents to the
filing of amicus briefs. In accordance with Rule 37.6, amicus confirms that no party or counsel for any party authored this brief in
whole or in part, and that no person other than amicus, its members, or its counsel made any monetary contribution intended to
fund the preparation or submission of this brief.

2
involved in fashion-related businesses in Los Angeles
and Orange County; it is a $49.3-billion industry (apparel and textile shipments including imported and
domestically produced merchandise). The apparel and
textile industry of the region employs approximately
128,000 people, directly and indirectly in Los Angeles
and surrounding counties.
The outcome of the decision in this case will directly and profoundly impact the fashion business as a
whole and the California Fashion Association’s members in particular. Fabric copyright infringement lawsuits have become a real—and, as discussed below,
unavoidable—problem for the industry. But it is not
just the defendants that are caught up in cases like
this one, or the courts burdened with hearing them,
that will lose out if the Court reverses the decision below. It is also the public, which will not only have to pay
higher costs for fashion and apparel items as a result
of the increased risk and costs of defending meritless
litigation, but also because, at the end of the day, many
companies, including California Fashion Association
members, will avoid working with prints to reduce the
risk of being sued in a case like this one. This potential
chilling effect on creativity and commerce is contrary
to the purposes of the Copyright Act.

3
II.

SUMMARY OF THE ARGUMENT

The Court should decline Unicolors’ invitation to
read a fraudulent intent requirement into Section
411(b) of the Copyright Act.2 The statutory text does
not support doing so and that ought to be the end of
the matter, as H&M ably argues. Resp. Br. at 23-26.
The perspective of the California Fashion Association (“Cal. Fashion”) is that any attempt to neuter Section 411(b) would be a mistake for important policy
reasons.3 That is, doing what Unicolors and its supporting amici ask would make a situation that is already problematic rather significantly worse.
Generally speaking, the situation that Cal. Fashion is obviously very concerned with is the veritable
plague of fabric copyright infringement lawsuits that
has descended upon the fashion industry over the past
fourteen years. Since 2007, Unicolors has filed 261
copyright infringement cases in the Central District of
California alone. If a PACER search is expanded nationwide to include other Los Angeles-based fabric converter clients of the Doniger/Burroughs plaintiffs’ law
firm, the number of fabric copyright cases filed in the
federal courts (mainly C.D. Cal.) since 2007 swells to
well over 1,000: Star Fabrics, Inc. (541 cases total
2

Unless otherwise noted, all statutory references are to the
Copyright Act, codified at 17 U.S.C.
3
This is true regardless of whether the change is effected by
reading fraud into the statute, as Unicolors framed the issue in
its petition, or by taking a strained view of the meaning of
“knowledge that [information] was inaccurate,” as Unicolors argued in its merits brief.

4
cases); Gold Value International Textile, Inc. (116
cases); LA Printex Industries Inc (123 cases); United
Fabrics Int’l, Inc. (140 cases). There are others; the foregoing list highlights only the most active repeat fabric
plaintiffs represented by the Doniger/Burroughs firm.
More specifically though, the problem is not just
that there are lots of fabric infringement lawsuits, it is
that these kinds of cases are virtually impossible to
avoid and very difficult to defend. Why? It is impossible
to usefully search prior registrations. There are also
structural aspects of the Copyright Act including the
presumption of validity, the allure of statutory damages and attorneys’ fees. And registration requirements are susceptible to being gamed. All of this is
discussed in more detail below. Unicolors has proven
very adept at systemically exploiting these systemic
weaknesses in ways that make pursuing these fabric
cases en masse low-risk, high-reward, and very easy—
too easy—for the plaintiffs to win, even where, as here,
the plaintiffs’ claims are dubious.
Unicolors asks the Court to further stack the deck
in favor of copyright infringement plaintiffs by making
it much harder for defendants to invoke the Section
411(b) procedure successfully. Specifically, all of the
various (and at times competing) formulations of what
Unicolors would propose the Section 411(b) standard
should be, focus the inquiry on what the applicant (who
is often not a lawyer) was thinking. How often will a
defendant be able to properly allege, much less prove,
whatever half-baked ideas about “publication” or the
“unit of publication rule,” etc., were going on in the applicant’s head at the time the application to register

5
was submitted? The whole point of this case is that
Unicolors knows that defendants will seldom be able
to do so, which suits Unicolors just fine.
Whether information is legally “inaccurate” should
be determined objectively based on what the law is, not
what the applicant thought it was (reasonably or otherwise) years ago. And the only subjective part of the
inquiry, focused on what the applicant knew or thought
at the time of the application, should be evaluating
whether he or she intended to submit the information
that was included in the application (not whether he
or she knew it was legally incorrect at the time). That
is a workable standard, more fair given the parties’ respective access to proof, easy to apply, and as H&M persuasively argues, it is consistent with many other civil
and even some criminal statutes that require “knowing” violations.
Moreover, the consequences of an adverse Section
411(b)(2) determination for a plaintiff are not nearly
as dire as what Unicolors and its supporting amicus
make them out to be. As H&M points out, if the Register makes the determination that the copyright would
not have been registered if the new facts were known
“the applicant doesn’t lose their copyright protection;
at worst they simply must properly register the work
and start over, perhaps without the benefit of certain
statutory remedies.” Resp. Br. at 47; see also id. at 6
(citing DeliverMed Holdings, LLC v. Schaltenbrand,
734 F.3d 616, 624-25 (7th Cir. 2013) (court must decide
whether application can support the action despite the
inaccuracy)).

6
In terms of what happens after a Section 411(b)
referral, this brief adds a few points. Most importantly,
if the plaintiff knowingly includes material, inaccurate information in its copyright registration application, it absolutely should lose the ability to recover
statutory damages and attorneys’ fees for that registration—which is exactly what the statute says is supposed to happen. See 17 U.S.C. § 411(b)(3) (Section
411(b) affects plaintiff ’s ability to “institute” a federal
infringement action under Section 411, and to recover
“remedies . . . under . . . [S]ection 412”4). As discussed
below, there are many reasons why applicants are often
tempted to fudge the facts in their registration applications. Section 411(b) properly incentivizes them to
be more honest, by threatening their ability to recover statutory damages and attorneys’ fees if it is
discovered that they knowingly including material,
inaccurate information. Such an interpretation would
encourage accuracy in applications, discourage lawsuits brought primarily for statutory damages and
fees, while still allowing actual damages and injunctive relief to be obtained by a plaintiff in an otherwise
meritorious case.
It should be left to the district court judge to determine post-referral issues including whether the
facts “alleged” by the defendant at the outset of
the 411(b) process are actually established, whether
amendment of the complaint will be allowed to include
4

Section 412 says that subject to certain exceptions likely to
be inapplicable, registration must occur prior to discovery of the
infringement, in order for the plaintiff to recover statutory damages or attorneys’ fees.

7
a new or supplemental registration, and whether an
applicant’s good faith or honest mistake of law militates in favor of allowing amendment or declining to
award a defendant fees if loss of the registration means
that the plaintiff loses on the merits of the case.5
III. ARGUMENT
A. How Unicolors and Similar Plaintiffs in
the Business of Fabric Litigation Game
the Copyright System
An issue lurking in the background of this case is
the extent to which Unicolors (and a dozen or so other
LA-based fabric converters also represented by the
Doniger/Burroughs plaintiffs’ firm) can fairly be said
to be engaged in “copyright trolling.” Although that
term is inherently difficult and controversial to define,
one commentator has attempted to helpfully do so by
focusing on what he terms “systematic opportunists.”
Sag, Matthew, Copyright Trolling, An Empirical Study,
100 Iowa L. Rev. 1105 (2015)6 at pp. 1105, 1111-14. And
in that limited sense of the term, Unicolors and its
fellow travelers certainly qualify. Section A of the
5

As a matter of access to proof and burden of persuasion, it
is fairer to allow a plaintiff to prove its own good faith mistake of
law, as an equitable defense against a fee award or as a factor to
be considered in whether amendment will be allowed, than to
force the defendant to prove the plaintiff ’s fraudulent intent as a
threshold issue at the outset of the statutory referral process. The
party best positioned to know and be able to prove the plaintiff ’s
state of mind is obviously the plaintiff.
6
Available here (last accessed September 22, 2021): https://law
ecommons.luc.edu/cgi/viewcontent.cgi?article=1530&context=facpubs.

8
argument addresses the aspects of the copyright system
that allow it to be gamed, and attempts to show exactly
how fabric converter plaintiffs including Unicolors do
so. Section B of the argument focuses on the important
role that Section 411(b) can play in counter-balancing
this system, and argues that it should be interpreted
so that it is easier to use, not rendered effectively impossible to invoke.
1. The Copyright Registration Process
The first and most important thing to appreciate
about the copyright registration process is that it
mainly operates on the honor system. That is, the applicant itself is largely trusted to self-define the scope
of the federally-enforceable monopoly7 that the applicant obtains for itself by virtue of registration.
Unlike in the patent and trademark systems, in
which an agency examiner is tasked with independently
verifying assertions made by an applicant, the Copyright Office plays no such role. As H&M explains, the
Copyright Office accepts the facts provided by the applicant as true, unless the applicant contradicts itself.
Resp. Br. at pp. 4-5. In other words, it is not the Copyright Office’s job to test the substantive truth of an applicant’s various representations made in a copyright
registration application.8
7

The Copyright Act gives the owner of a registered copyright
the right to sue others to stop them from infringing on the six socalled exclusive copyright rights. See 17 U.S.C. §§ 106, 411(a).
8
Aside from instances where the applicant contradicts itself within the four corners of its own application, the one main

9
Thus, if a company submits a copyright registration application saying that it authored a particular,
minimally original zig-zag pattern without reference
to any prior source material, the Copyright Office will
generally accept those facts as true and issue the registration.
Further, unlike with patents, there is no “prior art”
search that is done as part of the copyright registration
process. As H&M notes, the Copyright Office “generally
does not conduct searches to determine whether previously registration or publication has occurred.”) Resp.
Br. at p. 6; quoting U.S. Copyright Office, Compendium
of U.S. Copyright Office Practices § 602.4(D) (3d ed.
2021).
Moreover, even if searching to see whether a design claimed by an applicant had been previously registered by someone else were part of the copyright
registration process (and it is not) actually doing such
a search would be technologically impossible. The fundamental problem is that there is no way to query the
copyright registration system to say, in effect, ‘show me
exception, where the Copyright Office does perform a gatekeeping
function, is with respect to the so-called threshold of originality.
Which means evaluating whether the claimed design (or, in the
case of a group registration, all of the included designs) is (or are
all) so totally lacking in originality that no part of any of it is protectable. See Feist Publ. v. Rural Telephone Serv. Co., 499 U.S.
340, 345 (1991) (originality means that a work “possesses at least
some minimal degree of creativity. [Citation omitted]. To be sure,
the requisite level of creativity is extremely low; even a slight
amount will suffice.”). Thus, if an applicant sends in a drawing of
a single circle and tries to register it, that is the rare sort of application that the Office would likely reject.

10
all of the previously-registered zig-zag pattern designs
that look like this one I have here.’ Although reverse
image searching is a relatively ubiquitous technology
these days,9 that kind of functionality has not yet made
its way to the Copyright Office’s Online Records Catalog or to the Library of Congress’s collection of deposit
copies. The Copyright Office’s online catalog does not
include pictures or copies of the registered work itself;
only the written information submitted on the application form itself.
One upshot of continuing to use what is essentially a mid-20th Century card catalog system (as opposed to an image-searchable online database) for
keeping deposit copies of copyrighted works is that nobody, including the Copyright Office itself, can ever
possibly know whether or not there might be a prior
copyright registration on file for something that is the
same or substantially similar to any given work. Theoretically, the only way to be sure that a given fabric
design or other work of authorship was not previously
registered by someone else would be to put the design
in question firmly in mind, and then go through and
search the entire Library of Congress collection of deposit copies to look for the proverbial matching needle
in one of the world’s largest haystacks.
Accordingly, there is no way for an apparel manufacturer purchasing printed fabric, or a retailer selling garments on which the same print appears, to
9

Such technology, e.g., Google Image Search, is frequently
used by some photographers to scan the entire Internet for copies
of their photos, so they can sue the (often-unsuspecting) website
owners for infringement.

11
determine whether a company like Unicolors will
claim to own the design, because it is arguably similar
to one of Unicolors’ tens of thousands of registered designs. Retailers can require their vendors to represent
and warrant they are not selling infringing goods. And
a manufacturer can ask for assurances that the supplier of printed fabric created the design itself or otherwise has rights to it. But, as this case demonstrates,
even that is no protection; H&M’s designer had a Chinese copyright registration, but getting it into evidence
was problematic. What these cases normally come
down to is a battle of evidence about who supposedly
created what, when, and how. While the plaintiff ’s
story is treated as presumptively correct under the law,
the defendant is left to scramble and try to trace the
particulars about the creation of its own product up the
global supply chain.
2. Infringement Under the Copyright
Act
The Copyright Act’s presumption of validity allows
a plaintiff to prove most of its prima facie case for
infringement simply by introducing its registration
certificate into evidence. See 17 U.S.C. § 410(c). Importantly, the presumption of validity extends to all of
“the facts stated in the [registration] certificate.” Id.10
10

Introduction of the registration certificate establishes that
the plaintiff has a valid copyright, that the plaintiff owns protectable “original authorship,” identifies the “author,” and when the
work was completed and first published. What remains for the
plaintiff to prove is “copying” of the protectable aspects of a plaintiff ’s work by the defendant. Rarely will plaintiffs have direct

12
Thus, the representations made by the plaintiff
are not only not substantively examined by the Copyright Office during the registration process, they are
also then treated as factually correct and established
without the need for further proof after the plaintiff
sues for infringement.11 Therein lies a big part of the
problem as to how these cases lend themselves to
abuse.
The most common—and fundamentally unfair—
“inaccuracy” that occurs in copyright registration applications is the failure of the applicant to disclose
information about the applicant’s own source or inspirational material. When an applicant properly discloses pre-existing source material used as inspiration
evidence that the defendant or its designer actually literally copied a plaintiff ’s design. A plaintiff generally proves copying by
showing that its design is “substantially similar” to the defendant’s product, and that the defendant has “access” to the plaintiff ’s design. Fabric plaintiffs establish “access” by claiming that
the design was available for public viewing at their showroom
(showrooms where they keep no records of who visits, even though
that same showroom is repeatedly claimed as the locus for purportedly unlawful copying), plus producing evidence that the
plaintiff advertised its at-issue designs in various ways. The jury
is then asked to infer, based on the foregoing, that defendant or
its designer must have seen the plaintiff ’s design somewhere.
However, if the defendant’s product is claimed to be “strikingly
similar” to the plaintiff ’s design, plaintiffs will, as Unicolors did
here, ask the court to excuse it from even proving access, and argue that the designs are so similar that the defendant must have
copied the plaintiff. See Resp. Br. at 11, Skidmore v. Led Zeppelin,
952 F.3d 1051, 1064-65 (2020).
11
Assuming that the registration was obtained within five
years of first publication, which is usually the case. See 17 U.S.C.
§ 410(c).

13
for its own design, the resulting copyright registration
is correspondingly limited; only the applicant’s “original authorship” is protected, the pre-existing source
material is excluded from the scope of registration. See,
e.g., Copyright Compendium 3rd at 503.5.12 By neglecting to disclose source and inspiration material in the
application, the applicant obtains a broader grant of
rights than what it should, which it can also use to sue
others later. And that broader grant of rights is legally
presumed to be valid and correct when it comes time
for litigation, thanks to Section 410(c). Obviously, this
creates a strong incentive for an applicant to be “inaccurate” in a way that maximizes the applicant’s rights
and makes it easier to sue later.
Similar incentives apply with respect to “publication.” An applicant disclosing when its design was “first
published” is not just some arcane relic of a bygone era
when copyright formalities were curiously treated as
more important. One reason “first publication date”
12

“A copyright registration covers the new expression that
the author created and contributed to the work, but it does not
cover any unclaimable material that the work may contain. For
purposes of registration, unclaimable material includes the following:
• Previously published material.
• Previously registered material (including material that
has been submitted for registration but has not been registered yet).
• Material that is in the public domain.
• Copyrightable material that is owned by a third party
(i.e., an individual or legal entity other than the claimant
who is named in the application).”

14
remains key is because it normally establishes the target date that the defendant needs to beat in order to
negate plaintiff ’s proof of access (or affirmatively establish independent creation by the defendant). In
other words, if the defendant can show that it has been
selling its product (or that its product was otherwise in
existence) prior to the plaintiff ’s claimed “first publication” date for its copyrighted design, then the plaintiff
is normally not going to be able to prove copying. One
cannot copy something that has not yet been created.
Moreover, a plaintiff will normally not be able to prove
that the defendant had “access” to a design not yet released to the public. Accordingly, applicants like Unicolors who register their designs with one eye (or
perhaps both) on future litigation are incentivized to
always choose the earliest possible claimed first publication date, to move the goal post as far back in time
as possible, even if publication on that date is questionable.13
One key corollary to the presumption of validity,
which sophisticated repeat plaintiffs like Unicolors
13

Since a Doniger/Burroughs fabric client lost on summary
judgment due to a publication “inaccuracy” in 2017, a result
which was affirmed by the Ninth Circuit in Gold Value Int’l Textile v. Sanctuary Clothing, 925 F.3d 1140 (9th Cir. 2019), the
firm’s fabric clients now mainly tell the same story about publication that Unicolors told here: designs in suit were purportedly
“first published” when they were allegedly released into the plaintiff ’s physical showroom. (Showrooms that are purposefully setup
by the plaintiffs to be evidentiary black boxes from which no documents or independently-verifiable evidence can ever seem to escape, except for the plaintiff ’s own oral testimony about the
legally significant goings on that supposedly occurred there.).

15
shrewdly appreciate, is that the risk of maintaining evidence of what occurred during the design and registration process far outweighs the reward. Absent the
presumption of validity, Unicolors would need to retain
evidence establishing who created its design(s) at issue, how, when, etc., in order to establish it has a valid
copyright. However, because the presumption normally does apply, a clever plaintiff will jettison any
hard proof that a defendant might someday use to try
and burst the bubble of the presumption of validity.
Thus, the presumption not only washes away whatever
transgressions may have occurred during the design
and registration process, it also incentivizes professional plaintiffs like Unicolors to dispose of any documentary evidence that might undermine the validity
of the registration.
Another important structural aspect of the Copyright Act that has allowed fabric copyright cases to become a cottage industry unto themselves is the lure of
statutory damages and attorneys’ fees, which make
even low value cases worth pursuing.14
What is unusual though about the statutory damage and attorneys’ fee remedies under the Copyright
Act is that their availability is generally preconditioned on registration being obtained prior to infringement being discovered, per Section 412. And, under
Section 411(b), it is specifically contemplated that one
14

In this case the defendant’s gross profits on the allegedly
infringing items were $98,385 (see E.R. 666), which actually
makes this case relatively high value for the world of fabric copyright litigation.

16
consequence of an adverse Section 411(b) referral determination is supposed to be that the plaintiff loses
the right to obtain these remedies. See 17 U.S.C.
§ 411(b)(3).
The final aspect of the Copyright Act that helps
explain the profusion of fabric infringement lawsuits
is that U.S. retailers and importers are all liable for infringement, even if the alleged “copying” was actually
done by an upstream vendor. While there is generally
some degree of confusion and debate about whether
copyright infringement is a strict liability offense,15 in
the sense that matters here, it is. Thus, a retailer that
may have done absolutely nothing wrong can and often
does find itself staring down a six or seven figure liability because its vendor’s supplier’s designer in China
allegedly copied a plaintiff ’s design.16

15

Goold, Patrick Russell, Is Copyright Infringement a Strict
Liability Tort? (December 8, 2014), 30 Berkeley Technology Law
Journal 305 (2015), Available at SSRN: https://ssrn.com/abstract=
2535557.
16
Another, non-copyright factor that helps fuel the fabric
copyright phenomenon is asymmetrical access to key overseas evidence and witnesses. Given the longstanding relationships it has
with them, the plaintiff often is able to get its European and U.S.
designers to cooperate in discovery voluntarily, but only if the
plaintiff thinks that would help. By contrast, a defendant will often face severe difficulty trying to obtain admissible evidence
from a vendor located in mainland China, even if, as in this case,
that vendor has helpful evidence (such as its own copyright registration) and wants to cooperate. See Resp. Br. at pp. 13-14.

17
3. Examples of Unicolors and Other
Fabric Plaintiffs Gaming the System
Given the strong incentive for fabric plaintiffs
such as Unicolors to unburden themselves from keeping any documentary evidence that might be used to
rebut the presumption of validity, the changing stories
told by Unicolors about the creation of the design it is
suing on in this case are sadly unsurprising.
Here, Unicolors initially stated (repeatedly) in verified discovery responses that the design at issue was
based on artwork it purchased from a third party designer called Milkprint, LLC.17 Unicolors then changed
its story entirely during the final two days before the
close of fact discovery (which was on April 25, 2017),18
and claimed that the real inspiration for the design
was a visit that a Unicolors employee named Hannah
Lim took to “the Natural History Museum.”19 Unicolors’ owner attempted to explain Unicolors’ earlier
sworn discovery responses, and his own testimony
about the design being based on art purchased from
Milkprint as being the result of a “misunderstanding
about the inspiration.”20 According to H&M’s counsel,
17

E.R. 1406, 1457, 1854.
E.R. 1388.
19
E.R. 1872 (Lim Decl.) at ¶ 12 (“I drew all elements of the
Subject Design, in an Aztec art style I had become familiar with
by visiting the Natural History Museum.”).
20
See E.R. 1868 (Pazirandeh Decl.) at ¶ 18 (“At some point
after the creation of the Subject Design, Hannah Lim left her employment at Unicolors. During her absence, I believed that the
creation of the Subject Design was inspired by artwork purchased
from a design studio, Milkprint, LLC. Recently, I learned I had a
18

18
when H&M raised questions about why none of Lim’s
design files—evidence showing what she had created,
when, and how—had been produced, Unicolors claimed
“they did not exist, partially due to a computer virus”
notwithstanding Lim’s own testimony “that it was her
understanding that the overwhelming majority of Unicolors materials affected by the computer virus were
recovered by a firm in San Diego.”21
In fabric copyright litigation, last minute surprises
as to the basic facts surrounding a plaintiff ’s copyright
and mysteriously vanishing evidence from the plaintiff
and its designers are both par for the course.
With respect to Unicolors’ first creation story for
the copyright it sued on in this case, the name
“Milkprint” ought to ring a bell. In February of 2012,
Doniger/Burroughs client Matrix, Inc. sued Macy’s for
infringement of Matrix’s copyright registration no.
VAu 1-059-584. Matrix v. Macy’s, C.D. Cal. No. 12-cv1450, ECF No. 1, at p. 3 of 17, ¶ 9. As was later alleged
in Matrix’s lawsuit against Milkprint, the design that
Matrix used to sue Macy’s was one that Matrix purchased from Milkprint. See Matrix v. Milkprint, C.D.
Cal. No. 12-cv-8597, ECF No. 1, at p. 4 of 19, ¶¶ 11-13.
Macy’s subpoenaed Milkprint, and Milkprint
“eventually disclosed that the Subject Design was copied form [sic] public domain artwork and was not an
misunderstanding about the inspiration. As the person who actually created the Subject Design, Ms. Lim naturally has more accurate knowledge about the creation of the Subject Design than I
do.”).
21
E.R. 1778 (Riordan Decl.) at ¶ 10 and fn. 3.

19
original work of authorship by it.” Id. at p. 7 of 19, ¶ 32.
The design that Matrix claimed was wholly original
and was the basis of its claims against Macy’s, was actually “a paisley pattern dating back to the early 19th
century which MILKPRINT and/or its agent copied
from a public domain source artwork book. As a result
of the uncovering of the historical paisley pattern that
was the true source of the Subject Design, [Matrix] was
forced to dismiss its action against Macy’s with prejudice and enter into a confidential settlement agreement with Macy’s in which [Matrix] had to pay Macy’s
attorneys’ fees and costs related to defending the action.” Id. at p. 4, ¶¶ 15-16.
After Matrix was forced to pay Macy’s fees, Matrix
sued Milkprint for breach of contract, fraud, and negligent misrepresentation, because the design Matrix
bought from Milkprint and then used to sue Macy’s
was not actually original, as allegedly promised by
Milkprint. See id. at pp. 7-9 of 19. Notably, and as is
typical for fabric plaintiffs, the copyright registration
application submitted as an exhibit to Matrix’s complaint against Milkprint, prepared by attorney Stephen
Doniger, did not disclose the existence of any “Preexisting Material” (i.e., that a substantial part of the
Milkprint design was actually based on a public domain sourcebook), where that information was called
for at Box 6a of the application. See id. at p. 15 of 19.
Given that this prior dispute about the originality
of artwork purchased from Milkprint is publicly available for anyone to read about on PACER, it is little
wonder that Unicolors might have hesitated to go to

20
trial in this case based on its statement that its design was based on artwork purchased from Milkprint.
Moreover, Cal. Fashion is equally if not more skeptical of the second creation story, which Unicolors pivoted to just prior to the close of discovery, which was
that Hannah Lim purportedly drew the design after
visiting the Natural History Museum. Although the
fanciful story Ms. Lim tells in her declaration (E.R.
1870-74) might seem plausible to a lay person, anyone who understands how textile design actually
works would necessarily have a hard time believing
it for several reasons.
As an initial matter, the design at issue here does
indeed appear to be an Aztec motif, as Ms. Lim states
in her declaration. E.R. 1872, ¶ 12 (“I drew all of the
elements of the Subject Design, in an Aztec art style I
had become familiar with by visiting the Natural History Museum.”).
In fact, if one performs a Google Chrome “incognito
mode”22 search for the term “Aztec textile” here is the
second image result that pops up (left side),23 as compared to the Unicolors’ design in this case (right side).24

22

Doing it in incognito mode yields more consistent results
not affected by an individual’s own browsing history.
23
Google Image result (underlying file is a dead link) to undated Blendspace.com lesson entitled “Aztec Textiles by Patricia
Groe”).
24
J.A. 230.

21

Admittedly, the image on the left is outside the record
in this case, it is undated, and its provenance is unclear, so no evidentiary weight can be placed upon it.
Nevertheless, the image is still a helpful illustration of
what a believable creation story told by Ms. Lim might
have sounded like. Namely, if her testimony had been
that she had taken an existing Aztec motif, either the
image on the left, or something like it, and re-arranged
it, and tweaked some things, to create the image on the
right, then that would be entirely believable and consistent with the way commercial textile design often
works. Based on the hypothetical process just described, if Ms. Lim and Unicolors had accurately disclosed the “Preexisting Material” utilized in the
creation of the design in completing their copyright
registration application at box 6a, then they might
even still have obtained a registration (albeit one

22
with a much more limited scope of protection; i.e.,
“thin” protection that extends only to protect the original selection and arrangement of otherwise unprotectable elements).
However, what Ms. Lim actually swore to in her
declaration: is (a) internally inconsistent in that a “tiki
house” (E.R. 1871 at ¶ 5) is not consistent with Aztec
iconography (see E.R. 1872 at ¶ 12); (b) seems perhaps
a bit too perfect; and (c) if Ms. Lim really “created all
elements of the Subject Design by hand through the
use of various computer drawing tools and programs”
(E.R. 1872 at ¶ 11) then Unicolors absolutely should
have digital records of that and their apparent failure
to produce any is more than a little suspicious.
Perhaps if Unicolors had not sprung its new creation story on H&M two days prior to the close of fact
discovery, H&M would have had sufficient time to investigate these issues more thoroughly.
Another Doniger/Burroughs fabric case further
highlights how plaintiffs play games with what their
designs are really based on, and in articulating what
is supposedly original about them, in order to try and
extract rents to which they should not be entitled. In
Star Fabrics, Inc. v. Zulily, LLC, C.D. Cal. No. 17-cv8358, Star obtained a registration for a zig-zag print
design. Defendant filed a motion for partial judgment
on the pleadings arguing that Star’s design was very
clearly inspired by a ubiquitous zig-zag design popularized by the Italian fashion house Missoni and that
whatever original authorship Star’s design embodied

23
(if any) was not protectable. Id. at ECF No. 23-1, pp. 12,
19-21. In other words, both Star and the defendant
vendor were doing Missoni-inspired zig-zags, but Star
was attempting to monopolize the field.

Missoni, 1970’s

Star copyright

D’s product

Star Fabrics, Inc. v. Zulily, LLC, C.D. Cal. No. 17-cv8358, ECF No. 23-1 at pp. 8, 13.
When Doniger/Burroughs was asked in that case
to identify what, specifically, was claimed as original
about Star’s Design, they took the position they normally take: everything; all of it is wholly original. Id.
at p. 12.25 When pressed to identify what specific protectable elements would be claimed as original, for purposes of applying the Ninth Circuit’s test for extrinsic
substantial similarity, Star initially “refused” to do so.
Id. at p. 7. The district court ultimately granted the
motion and dismissed Star’s claim on the zig-zag design
25

Mr. Doniger: “we believe the works to be entirely original
and protectable.”; see also ECF No. 25-1 (Exhibit A-8), Mr. Doniger: “I am unaware of any part of the artwork at issue that is
not original authorship.”

24
(id. at ECF No. 59), relying on the merger doctrine as
applied in Ets-Hokin v. Skyy Spirits, Inc., 323 F.3d 763,
766 (9th Cir. 2003).
B. Section 411(b) Should be Interpreted so
That it is Easier to Invoke and Apply, Not
Harder
The Matrix case showing how Milkprint (the designer Unicolors initially said created the design here)
copied its purportedly original design from a source
book, and the Star Fabrics case showing how Star tried
to monopolize Missoni-inspired zig-zag designs, as well
as the two prior Unicolors cases discussed by H&M in
its brief involving the leopard and floral prints that
Unicolors (or its designers) also copied out of source
books and then sued on (Resp. Br. at pp. 9-11), all illustrate one of the main problems that Section 411(b) is
intended to guard against.
By failing to disclose in their copyright registration applications the true sources of the designs they
sue on—whether inadvertently or not—professional
plaintiffs like Unicolors improperly enrich themselves
by appropriating things that are in the public domain
(or which were popularized by others, as in the Missoni
example) for themselves. In those four cases noted
above, fabric converter clients of the Doniger/Burroughs firm got caught with their hands in the cookie
jar and their efforts were unsuccessful. The much bigger problem is that in most of the 1,000-plus other fabric cases, the plaintiffs similarly did not disclose any
limitations on the rights they claimed for themselves

25
when they prepared their copyright registration applications. Yet, in each instance, the plaintiff ’s representations that its designs are not based on any preexisting material are presumed to be correct by operation of Section 401(c).
If applicants like Unicolors routinely disclosed
what their designs were really based on in their registration applications, that would go a long way towards
preventing them from unjustly enriching themselves.
Further, increased accuracy as to source material
would help defendants and fact-finders identify instances when a defendant’s designer, who may be unknown or unable to testify in the U.S., was actually
working from the same pre-existing source material
(and thus not “copying” the plaintiff; so no infringement). And it would also help everyone evaluate which
registrations ought to be afforded so-called “thin” copyright protection, because the amount of the applicant’s original authorship was minimal.26
No reputable U.S. fashion company wants to copy
Unicolors, or Star, or any of the rest. Most of them
know by now that they would invariably get sued if
they did so. However, they have no way to check
whether any given design is infringing. As noted,
there is no image-searchable copyright database to
check or any other way to be sure. Companies like
Unicolors certainly don’t put their portfolios online
26

When copyright protection is “thin,” a plaintiff must prove
that its work is “virtually identical” to the defendant's product,
not just merely “substantially similar.” See, e.g., Ets-Hokin, 323
F.3d at 766.

26
to be searched for clearance purposes. So, for the
fashion industry, the only choices are to either buy
from the small group of predatory plaintiffs that do
these lawsuits, or else take one’s chances that a design sourced elsewhere won’t be claimed to be infringing. At the end of the day, a party’s comfort that
the print it is buying and selling is non-infringing is
only as good as the assurances provided by the vendor
from which it was sourced. Which is just as true when
Unicolors buys artwork from designers like Milkprint
as it is when a retailer like H&M buys garments with
prints from a vendor who had a designer with its own
Chinese copyright-registration. The only person who
really knows the extent to which a given design is original is usually the actual designer.
As with all honor systems,27 problems inevitably
ensue if there is truly no credible penalty at all associated with violations of the rules. Unicolors attempts to
frame the issue before the Court, as being about not
“penalizing poets and artists” when they make mistakes in copyright applications. See Pet. Br. at 2.
Unicolors and the other dozen or so LA-based fabric converters that keep the Central District of California busy with copyright lawsuits are certainly not
poets and, as discussed above, the extent to which they
27

Patent and trademark registration do not operate on the
honor system. Which is why it makes sense that the bar for “inequitable conduct” or “fraud on the trademark office” should be
higher than the corresponding standard for copyright registration, where no agency is examiner is tasked with trying to help
keep an applicant honest.

27
can properly be considered “artists” is a big part of the
problem.
When it is alleged that a plaintiff ’s claimed copyrighted design is actually just a copy of something in
the public domain, or if there is some other material
error in the application, what should happen to the
plaintiff ’s registration?
Unicolor’s answer appears to be ‘nothing, absent
proof of fraud.’ They contend that unless a defendant
proves, at the outset, that the plaintiff not just knowingly but fraudulently included the inaccurate information in the application, then there should be no
consequence to the plaintiff at all: there should be no
referral to the copyright office; the registration should
remain valid; the presumption of validity as to the
facts stated in the registration should survive intact;
statutory damages and attorneys’ fees should still be
available if the plaintiff prevails. Given the possibility
that non-lawyers filling out registration applications
could make good faith mistakes about potentially complicated legal issues, they argue it would be wrong to
kick plaintiffs out of court entirely and effectively
grant a windfall to defendants who uncover “technical” mistakes in the nature of “checking the wrong
box” on the application form.
The approach urged by Unicolors and its amicus, of
effectively neutering Section 411(b) by reading a fraud
requirement into it, would further exacerbate the existing structural features of the Copyright Act discussed above that incentivize troll-type lawsuits in the

28
first place. The fact that filling out a copyright registration application requires grasping a few legal concepts that can be tricky is not a valid reason to
effectively excuse the applicant from even trying to get
it right in the first place. The better standard, which is
more fair given the parties respective access to proof,
and which will be much easier for courts and practitioners to apply, should be that whether a statement is
inaccurate should be evaluated objectively, based on
what the law actually is, not on what the applicant
thought it was. As long as the applicant intended to include the information (as opposed to a typo, or some
other truly inadvertent error), if the information is objectively inaccurate, then the referral should be made
to the Copyright Office for a materiality determination
(i.e., whether, if the new facts had been known, registration would have been refused).
Moreover, once Section 411(b) is invoked based on
allegations of a knowing (but not necessarily fraudulent), material inaccuracy in the application, the result
need not be the parade of horribles that Unicolors and
its amicus decry. Even in cases where the Register responds that it would not have allowed the registration
if the new facts had been known to it, such a determination does not necessarily mean that the plaintiff
loses anything at all.
The statute itself, in a subsection ignored by Unicolors (17 U.S.C. § 411(b)(3)), provides the answer to
what the effect is of an adverse determination made by
the Register under Section 411(b)(2).

29
Assume that the Register responds to a Section
411(b)(2) referral by answering that the new facts
would have resulted in the Office denying the copyright
registration application had they been known. See 17
U.S.C. § 411(b)(2).
The first question for the district court to consider
would be whether or not those facts alleged by the defendant are actually established or not. If the facts are
genuinely disputed, then it may well be a question that
is put to a jury in a special verdict form.
If the district court determines that the facts alleged by the defendant at the outset of the referral process have now actually been established as true (e.g.,
after summary judgment or trial), then what the Register’s response does is advise the court that, had these
new, now-established facts been known, it would have
“caused the Register of Copyright to refuse registration.” 17 U.S.C. § 411(b)(2).
This is where Section 411(b)(3) comes in. What
that section means is that the consequence of the foregoing determination is that the plaintiff loses its registration and the corresponding rights to “institute” an
infringement action, and to obtain statutory damages
and attorneys’ fees, which are both based upon that
registration. See 17 U.S.C. § 411(b)(3). Importantly, the
plaintiff does not lose its underlying copyright, the existence of which never depended on registration in the
first place.
Nor does the plaintiff necessarily lose its claim
or its case. Plaintiffs can and often do file for new or

30
“supplemental” registrations when problems with an
original registration are discovered in litigation.28
Accordingly, if the underlying copyright is still substantively legitimate notwithstanding Section 411(b)
resulting in the loss of the initial registration and corresponding rights to sue and to recover statutory damages and attorneys’ fees that were based upon it, then
plaintiff can potentially ask the district court for leave
to amend to add in any new or supplemental registrations29 it may have filed to try and get out in front of
the problem with its original registration (assuming
the problem that would have caused the Register to refuse registration is curable, and not, for example, that
Unicolors failed to disclose that its purportedly original design is actually a copy of a picture of a leopard
created by someone else).
When a Section 411(b) determination that is adverse to a plaintiff is made by a district court, with assistance from the Register, what is generally not going
to survive is the plaintiff ’s right to recover statutory
damages and attorneys’ fees. This is because, under
Section 412, registration prior to discovery of the
28

See, e.g., Gold Value Int’l Textile v. Sanctuary Clothing,
925 F.3d 1140, 1144 (9th Cir. 2019) (discussing 17 U.S.C. § 408(d));
see also id. at 1148 (discussing how in L.A. Printex Indus., Inc.
v. Aeropostale, Inc., 676 F.3d 841, 846 (9th Cir. 2012), another
Doniger/Burroughs fabric case, the plaintiff did seek a supplemental registration, but in Gold Value the plaintiff did not).
29
Assuming that the district court still has jurisdiction to do
so, which may potentially depend on whether those new or supplemental applications have already matured to registration or
not.

31
infringement (or within three months of first publication) is a “prerequisite” to the plaintiff ’s receipt of
those remedies. 17 U.S.C. § 412; see also 17 U.S.C.
§ 411(b)(3) (stating that Section 411(b) will affect “remedies in infringement actions under . . . section 412”).
Such a reading of the statute is optimal because it
encourages accuracy in applications, discourages trolltype lawsuits, but leaves open the possibility that a
plaintiff could possibly still obtain actual damages or
injunctive relief in a meritorious case, even after being
adjudicated to have made a knowing, material inaccuracy in the registration. Plaintiffs who actually created
something original and who keep the evidence to prove
it have little to fear from Section 411(b).
Finally, to the extent that a plaintiff can affirmatively prove that it made a “good faith mistake of law”
(an equitable defense mentioned nowhere in Section
411) when it put objectively inaccurate, material information on its copyright registration application, that
can and should be considered by the district court. Specifically, a Plaintiff ’s proof of such a defense should be
relevant in determining whether to allow amendment
of a complaint to include a new or supplemental registration. And such a defense should also be relevant in
deciding whether the defendant should be awarded
attorneys’ fees, if the invalidation of the plaintiff ’s
original registration in accordance with Section 411(b)
resulted in the defendant becoming the prevailing
party.

32
IV. CONCLUSION
The judgment of the court of appeals should be affirmed.
Respectfully submitted,
JEFFREY LEWIS
JEFF LEWIS LAW
609 Deep Valley Drive,
Suite 200
Rolling Hills Estates, CA
90274
DEBORAH E. GRAVES
WITHERS BERGMAN LLP
1925 Century Park East,
Suite 400
Los Angeles, CA 90067

September 28, 2021

MORGAN E. PIETZ
Counsel of Record
PIETZ & SHAHRIARI, LLP
9454 Wilshire Boulevard,
Suite 310
Beverly Hills, CA 90212
(310) 424-5557
morgan@pstrials.com

